Ti

Q@OCKLE

ief E-Mail Address:
s
L £ & a I B rie contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
ARLENE ROSENBLATT,
Petitioner,

v.
THE CITY OF SANTA MONICA ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 2nd day of March, 2020, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ROBERT L. ESENSTEN
Counsel of Record
JORDAN S. ESENSTEN
ESENSTEN LAW
12100 Wilshire Blvd.,
Suite 1660
Los Angeles, CA 90025
(310) 273-3090
resensten@esenstenlaw.com
Counsel for Petitioner

Subscribed and sworn to before me this 2nd day of March, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
wer ot A ee Ober h bh
My Commission Expires Nov 24, 2020 «

Notary Public Affiant 39567

 
Isabel Birrueta, Deputy City Attorney

George Cardona, Deputy City Attorney

Heidi James Von Tongeln, Deputy City Attorney
Santa Monica City Attorney’s Office

1685 Main Street, Room 310

Santa Monica, CA 90401

Tel: (310) 458-8328

Isabel.Birrueta@smgov.net
George.Cardona@smgov.net
Heidi.vonTongeln@smgov.net

Attorneys for Respondents/Defendants the City of Santa Monica and the City
Council of Santa Monica
